                                                   Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                           Date:    June 15, 2006
           FAA’s Oversight of Inactive Airport
           Improvement Program Grant Obligations
           Project No. 06A3012A000
  From:                                                             Reply to
           David A. Dobbs                                           Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Assistant Administrator
            for Financial Services/CFO

           The Office of Inspector General plans to conduct an audit of inactive grant
           obligations in the Federal Aviation Administration’s (FAA) Airport
           Improvement Program (AIP). FAA’s national guidance calls for AIP grant
           close-out within 4 years of award. FAA policy also requires quarterly reviews of
           inactive grants and the de-obligation of unneeded funds. Given the current
           financial challenges facing the FAA, timely close-out of inactive AIP grants and
           de-obligation of unneeded funds could provide important funding support. As of
           October 1, 2005, FAA reported that approximately $11 billion was obligated to
           nearly 6,200 AIP grants.

           The objectives of this audit are to: (1) assess the effectiveness of FAA’s policies
           and procedures for identifying and de-obligating unneeded AIP grant obligations
           and (2) determine the extent to which AIP grant obligations are no longer needed
           and should be de-obligated and put to better use on other projects or returned to
           the Aviation Trust Fund.

           Our audit will be conducted at FAA Headquarters in Washington, DC, and
           selected FAA Regions and Airport District Offices. We plan to start the audit
           during the week of June 26, 2006, and will contact your audit liaison to schedule
           an entrance conference. The Program Director for this audit is Darren Murphy,
           and the Project Manager is Jerrold Savage. If you have any questions or require
                                                                     2


additional information concerning this audit, please call Mr. Savage at
(206) 220-6511 or Mr. Murphy at (206) 220-6503.

                                      #

cc: FAA Deputy Administrator
    Acting Associate Administrator for Airports
    Anthony Williams, ABU-100
    Martin Gertel, M-1
